                                                              NATIONAL
                                                               OFFICE OF SCIENCE
                                                                         INSPECI'OR
                                                                                 FOUNDATION
                                                                                    GENERAL'



 $$$&!
                                                                  OFFICE OF INVESTIGATIONS
   4
    0                                                  CLOSEOUT MEMORANDUM
     O O D A ?\O


Case Number: I06030007
                                                                                                     1             Page I of 1



          We received ~nformat~on     from a grantee institutioni that two forn~eremployees, Paul Meeder and
          John Straub, had inappropriately used official credit cards for personal p u r c h a s e s . h o t l ~
          ultimately pled gu~ltyand were sentenced in federal district court to one count of mail fraud
          under 18 U.S.C. 9 1341, for engaging in a long-te1-111 scheme between 2002 and 2006 to use their
          COI-poratecredit cai-ds for unauthorized personal expenditures. Subsequent to sentencing, OIG
          recommended that NSF debar each iildividual for a period of 3 years, and NSF accepted our
          recommendations. S Attachment 1 .

          Further, because this was the third unrelated instance of employee embezzlement at the grantee
          institution investigated by NSF OIG in the past se\leral years, OIG recommeuded that NSF
          declare the grantee ~nst~tutton   a high risk organ~zatlon,and cons~derimpos~ngspecial award
          collditiolls 011 its several active awards.      Attachment 2. In response to t h ~ srecommendation,
          NSF allle~ldedall actlve awards to the grantee institution to llnpose speclal paynlent prov~s~olls
          for a per~odof 3 years. See Attachment 3.

          Accordingly, no further action is warranted and t h ~ matter
                                                                s      is closed.




          I
              Carnegie Inslrlution of Wash~ngton
          ' Both ind~vidualshad used    the^ corpolate credlt cards for unauthorized personal puichases e x c e e d ~ ~5; ~100,000
                                                                                                                            g




Nsr OIG mllll2 ( I 1;02)
      National Science Foundation
      Office of Inspector General




                 Confidential
      Recommendation for Debarment Actions
           Case Number 1-06030007


                                March 17,2008


Illis Confidential Recomnlendat~onfor-Debx~nentActions IS the pr-opeltyof the NSF OIG and may be
    disclosed outside NSF only by OIG under the Freedom of Infonnat~onand l'nvacy Acts, 5 U.S.C.
                                               552,552a.
                                 NATIONAL SCIENCE FOUNDATION
                                          4201 Wilson Boulevard
                                        ARLINGTON, VIRGINIA 22230




                                            MAR 1 7 2008
      OFFICE OF
 INSPECTOR GENERAL



To:              Arden L. Bement, Jr.
                 Director
                     f

             '
From: ,yb;2:~hristine
      -
                       C. Boesz
             Inspector General

Subject:         Reco~ninendationfor Debannent Actions (NSF OIG Case No. 106030007)


        Attached is our confidential recoininendation for debarment actions, supported by a
debannent report, against two former accouiltillg einployees at a grantee institution who engaged in
a credit card scheme to defraud the grantee of over $200,000. Both individuals pled guilty to illail
fraud and were sentenced in federal district court. Though the funds stole11 were not federal in
nature, these eli~ployeesboth had control over federal award accounts totaling lllore than $5,000,000
via their' roles in the management office for a particular laboratory and have proven themselves to
be irresponsible'and untrustworthy stewards of federal funds. Therefore, 01G strongly recolmends
debarment of both individuals for a period of t l ~ e years.
                                                      e       We note that though the factors present
would nonnally lead us to request debannent for a longer period of time, we did not do so here
because no federal funds were directly implicated.

       If you have any questions about the investigation report or our recommendations, I ~vouldbe
happy to discuss them with you.




cc:    Laxvrence Rudolph, Ge~iel-a1Counsel
                          ,Senior Advisor for the Integration of Research and Education
                                Executive S ummarv

Allegation        The Carnegie Institution of Washington reported improper credit card
                  purchases and possible theft by two former employees.

Subjects          Paul Meeder and John Straub (collectively, the subjects), former
                  eillployees of the Camegie Geophysical Laboratory.

Background        Camegie determined that, while employed by Carilegie, the subjects
                  misused their corporate credit cards to make personal purchases. Canlegie
                  terminated the subjects' employment, referred the matter to the U.S.
                  Attorney's Office for the District of Columbia (USAO-DC) for
                  prosecution, and notified our office.

DOJ Prosecution   The USAO-DC accepted the matters for prosecution, and both subjects
                  agreed to plead guilty to inail fraud. Meeder accepted responsibility for
                  unauthorized personal expenditures of at least $109,000, and Straub for
                  unauthorized personal expenditures that totaled $1 05,597.21.

OIG
Recommendations   OIG reconlrneilds that NSF debar Meeder and Straub for 3 years.
                  Meeder's debarment should begin immediately, and Straub's debarment
                  should begin from the date of his release.
I.         Factual Background

         Carnegie currently1 has 58 active NSF awards totaling nearly $30,000,000. NSF OIG
received a complaint fronl Carnegie reporting possible thefts involving two fonner Carnegie
               2
employees. Paul Meeder was the Accounts Payable Manager for the Carnegie Geophysical
~ a b o r a t o r ~and
                    , ~ John Straub was the Accountant and Business Manager for the Carnegie
                             4
Geophysical Laboratory -and Meeder's supervisor. An audit conducted by Carnegie in
response to previous instances of employee enlbezzlement identified a large balance in an
overhead account (known as the Advance Account). Upon investigation, Carnegie learned and
reported to NSF OIG that the subjects had used two corporate credit cards (Diners Club and
Sam's Club) for personal purchases, and consequently, that Carnegie had terminated their
einploynent froin their positions with the Geophysical Laboratory. Throughout their tenure at
Carnegie, NSF issued approximately 27 awards, in a total amount exceeding $5,000,000, to
projects within the Geophysical Laboratory. At OIG's request, Carnegie engaged an outside
firm to conduct a review of the source of the stolen funds, and it was determined that no federal
funds were directly implicated.
                                                                                                                               I
        Meeder's misconduct began in May 2002 and continued through January 4, 2006, at
which time the theft was discovered by Camegie officials and his employment was terminated.
During that time, Meeder used his corporate credit cards to make a significant number of
unauthorized personal purchases. These purchases included vacations to Disney world, Hawaii,
and Las Vegas, as well as two cruises. In addition, Meeder purchased items at Exoticar Models,
Sharper Image, AOL, and Chefs Catalog. In total, Meeder used the official corporate credit
cards to pay for unauthorized personal expenditures that totaled at least $109,000.

        Straub's inisconduct began in May 2002 and continued through January 4,2006, at which
time the theft was discovered by Carnegie officials and his employment was terminated During
that time, Straub used his corporate credit cards to make a significant number of unauthorized
personal purchases. These purchases included items purchased at the Sharper Image, a 42-inch
plasma television, a vacation at Dlsney World, and two cluises. In total, Straub used the official
corporate credit cards to pay for unauthorized personal expenditures that totaled $105,597.21.

11.        Prosecr~tion113' the Department of Justice

        Ca~megieconcluded that the subjects stole Carnegie funds, and therefore referred the
matter to the United States Attorney's Office for the District of Colurnbia (USAO-DC), which
accepted this matter for prosecution. The Assistant U.S. Attorney investigated and entered into
plea a ~ e e m e n t swith both subjects.



1
     Information coiicel-ning numbel- of acti\.e awards and the total \;slue of the a\vards \\;as obtained G-om the Feder-a1
     Cash Transaction Repol-t for the quarter ending 1213 112007.
     T h e Camegie officials, \\ho hr-ought this information to our attention \\;ere tlie Directol- of Adlilinistr-ation and
     Finance, tlie Financial klanager, the I'inancial 'Accour~(ant.and the Deplltyto the Financial h4anager.
3
     I\leedel- sel-\:ed in that position fr-orn 1'993 t11l-ough January 2006.
     St]-auh served in that position from 1985 tlu-ough Ja1lnary2006,and sel-ved as hileeder's supervisor.
       Meeder signed a plea agreement on August 31, 2 0 0 7 , ~and appeared in federal court on
September 5, 2007, to plead guilty to one count of Mail Fraud. O n January 18, 2008, he was
sentenced to 5 years of probation, 200 hours of community service, and payment of restitution in
the amount of $78,385.05.~)~

       ~Straubalso pled guilty to one count of Mail Fraud, signing a plea agreement on
September 14, 2007,~and appearing in court on October 11, 2007, to enter the guilty plea. On
Febiuary 8, 2008, Straub was sentenced to 15 months of incarceration followed by 2 years of
supervised release, and payment of restitution in the amount of $82,789.05~and a fine of
$5,000.'~

111.     OIG Assessment

         A.        Grounds for Debarment
                                                                                                                     I
          NSF may debar a person for "Conviction . . . for . . . Commission of embezzlement, theft
. . . or . . . Commission of any other offense indicating a lack of busiiless integnty or business
honesty that seriously and directly affects [the person's] present responsibility. . . .        The             ""
subjects separately pled guilty to violating 18 U.S.C. 5 1341 for acts constituting theft, and their
individual conduct clearly indicates a lack of business integnty or business honesty that seriously
and directly affects their individual present responsibility.

         B.        Burden of Proof

       In debannent actions, the burden of proof lies with NSF to deinonstrate by a
preponderance of the evidence that cause for debarment exists.12 "If the proposed debarment is
based upon a conviction or civil judgment, the standard of proof is met."'? Since this proposed
debarment is based on the subjects' convictioils for inail fraud, the burden of proof is met.




    Tab 1, Meeder plea agreement.
    ~ a 2 b, Meedei nqtice of electronic filing for sentencing.
    Meeder's restitution payment was reduced by $3 1,543.1 I l ~ had e pl.e~jiouslyrepaid co Calnegie.
8
    T a b 3, Sti-aub plea agl-eement.
"traub's       restitution payment \\,as reduced by $22,808.15 Ile liad ~ ~ s e \ . l o u srepaid
                                                                                            ly    lo Camegie.
l o T a b 4, Straub notice ofelectron~cfiling hi-sentencing.

" 2 C.12.1i. 5 180.800(a)(3) 8( -(4).

l 2 2 C.12.1i.$ 180.850(a) & -.855.

'.' 2 C.F.II.9: 180.850(b).
          C.         '   Relevant Factors

       The debarment regulation lists 19 factors that the debarring official must consider.I4 The
following factors are pertinent to this case:

                         1.    Actual or Potential Harm or 1mpacti5

      The subjects' actions resulted in a financial loss to Carnegie totaling Inore than
$200,000.00.

                         2.    Frequency or Duration of 1ncidentsI6

       The subjects' fraudulent use of their Carnegie credit cards extended over a period of inore
than 3 years.

                         3.     Pattern of wrongdoing17

        The subjects made their fraudulent charges on numerous occasions over a period of more
than 3 years. Moreover, they each used two corporate purchase cards for their scheme.

                         4.     Role in ~ r o n g d o i n g ' ~

       The subjects planned, initiated, and carried out the wrongdoing together. Specifically,
Meeder and Straub approved and signed off on each other's wrongful expenditures, and neither
could have engaged in this scheme without the other's assistance. We also note that Straub was
Meeder's supervisor and used that role to facilitate his and Meeder's wrongdoing.

                         5.     Acceptance of ~ e s p o n s i b i l i t y ' ~

       The subjects accepted responsibility by entering guilty pleas before the federal district
couil. We note, however, that Meeder accepted responsibility by entering into a plea agreeinent
before Straub, and Meeder's cooperation likely resulted in Straub's decision to ultimately accept
responsibility.

                         6.     Repayment 20

       Meeder retunled $31,543.1 1 ynor to sentencing, and has been ordered by the court to
make additional restitution of $78,385.95. Stl-aub retul-ned $22,808.15 prior to sentencing and
has been ordered by the court to make additional restitution of $82,789.06.

l4   2 C.F.ll. $   180.860.
"    2 C.F.R. 9    180..86O(a).
l 6 .2 C.F.11. $   180.86O(b).
17
     2 C.F.11. 4   180.860(c).
I S 2 C.F.I<.$     180.860(r). .
''   2 C F.R. $    180.860(g).
''   2 C.F.11. $   180.860(11).
                    7.     Cooperation of the subjects2'

            The subjects agreed to plead guilty, returned funds, and will'make additional restitution
    as ordered. Meeder agreed to plead before Straub and provided significant information about
'
    their scheme. Meeder's cooperation appeared to be ail important factor in Straub's decision to
    plead guilty to the offenses, since Straub agreed to the plea only after Meeder had provided
    incrimiilatiilg evidence and had agreed to testify against him. Given these circumstances, the
    USAO-DC requested the court to impose a reduced sentence for Meeder and the court did so.22

                   8.      Position Held by

           The subjects used their positions as Accounts Payable Manager (Meeder), and
    Accountant and Business Manager as well as Meeder's supervisor (Straub), with control over the
    data entry of purchasing and the authority to use corporate credit cards, to facilitate the
    commission of their offenses.

    IV.     Recommendations

           Despite the subjects' sentences, they continue to possess the skills to be hired in positions
    administering federal awards. In order to further protect the interests of the public and NSF, we
    recoil~tnendthat NSF:

    (1)     Debar Paul Meeder for 3 years. Meeder's debarment should begin immediately.

    (2)     Debar John Straub for 3 years. Straub's debarment should begin from the date of his
            release.




    " 2 C.F.II.5 180.860(i).
    22  Tab 5 : Goveri~n~ent'sMemol-antlum In Aid Of Sentencing And Motion Fo1. Do~\~\in~vai-d
                                                                                          Depai-ture
        Pursuant 'To USSG Section 5 1 ~ 1. I .
    2 3 2 C.F.R. 5 150.860(k)
                                  NATIONAL SCIENCE FOUNDKTION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




                                           JUL d. 1 2008

     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Mr. John Straub




       Re: Notice of Proposed Debarment

Dear Mr. Straub:

This letter serves as formal notice that the National Science Foundation ("NSF") is proposing to
debar you from directly or indirectly obtaining the benefits of Federal grants for a period of three
years from the date of your release from prison. During your period of debamlent, you will be
precluded from receiving Federal financial and non-financial assistance and benefits under non-
procurement Federal programs and activities. In addition, you will be prohibited from receiving
any Federal contracts or approved subcontracts under the Federal Acquisition Regulations
("FAR"). Lastly, during your debarment period, you are barred from having supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.


Reason for Debarment.

Your debamlent is based upon a referral from IVSF's Office of Lnspector General ("OIG").
NSF's record demonstrates that you pleaded guilty to a charge of mail fraud in violation of 18
U.S.C. 5 1341. You were sentenced to fifteen months of incarceration followed by two years of
supervised release, and you were required to pay restitution in the amount of $82,789.06, as well
as a fine of $5,000.
Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

(a) Conviction of or civil judgment for -

(1) Commission of fraud or a criminal offense in connection with obtaining, attempting to obtain,
or performing a public or private agreement or transaction; or


(3) Commission of embezzlement, theft, forgery, bribery, falsification or destruction of records,
making false statements, tax evasion, receiving stolen property, making false claims, or
obstruction of justice; or

(4) Commission of any other offense indicating a lack of business integrity or business honesty
that seriously and directly affects your present responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. If, as in this case, the proposed debarment is
based upon a conviction or civil judgment, the standard of proof is met. Id. Therefore, your
conviction for engaging in mail fraud supports a cause for debarment under 2 CFR
180.800(a)(l),(3), and (4).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Having considered the seriousness of your
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR 150.860, we
are proposing debarment for a period of three years.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.855 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person, or in writing, or though a representative, information and argument in opposition to
this debannent. 2 CFR 180.860. Please note, however, that because your debannent is based on
a conviction, you will not have an opportunity to challenge the facts underlying the conviction.
2 CFR 180.830(a). Comments submitted within the 30-day period will receive full consideration
and may lead to a revision of the recommended disposition. If NSF does not receive a response
to this notice within the 30-day period, this debarment will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia, 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.




                                                    Kathie L. Olsen
                                                    Deputy Director



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
                                  NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230

     3
         fl*<\,
          */&".2,,4
                r4   %

      ..,-,],,J-k:[.&+~
     Y'y
      , ,$, N   SF~~J-
                     .<rZ
    .+:??..I
     .&tj;,,...<pjL
          $!~..g"..q
             .?                           SEP 1 9 2008
    OFFICE OF THE
   DEPUTY DIRECTOR




Mr. John Straub




          Re: Debarnr ent

Dear Mr. Straub:

On July 11, 2008, the National Science Foundation ('WSF") sent you a Notice o f Proposed
Debannent it1 which NSF proposed to debar you 6-0111 directly or indirectly obtaining the benefits
ofFederal grants for a period ofthree years. The Notice sets forth in detail the circulnstances
giving rise to NSF's decision to propose your debannent. Specifically, NSF indicated in the
Notice that the proposed debarnnent is based upon your conviction for mail 6-aud. In that Notice,
NSF provided you with thirty days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until July 1 1, 20 1 1. Debannent precludes you &om receiving Federal financial and non-
financial assistance and benefits under non-procurement Federal programs and activities unless an
agency head or authorized designee makes a determination to grant an exception in accordance
with 2 CFR 180.135. Non-procurement transactions include grants, cooperative agreements,
scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance,
payments for specified use, and donation agreenlents

In addit ion, you are prohibited from receiving Federal contracts or approved subcontracts under
the Fetlei-a1Acquisition Regulations ("1;A.R) at 45 CFR Subpait 9.4 for tlne period of this
debar-lnent. 2 CFR 150.925. During the debaimlent period, you may not have supervisory
I-esponsibility,prirnary manageil~ent,substantive control over, or critical i~nfluenceon, a grant,
I
i   contract, or cooperative agreement with any agency of the Executive Branch of the Federal
    Government.

    If you have any questions regarding the foregoing, please contact Eric Gold, Assistant General
    Counsel National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
    Room 1265, Arlington, Virginia, 22230.



                                                        Sincerely,



                                                        Kathie L. Olsen
                                                        Deputy Director
                                   NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD.
                                       ARLINGTON, VIRGINIA 22230




      OFFICE OF THE
    O E P U N DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Mr. Paul Meeder




       Re: Notice of Proposed Debarment


Dear Mr. Meeder:

This letter serves as formal notice that the National Science Foundation ("NSF") is proposing to
debar you from directly or indirectly obtaining the benefits of Federal grants for a period of three
years. During your period of debarment, you will be precluded fiom rece~vingFederal financ~al
and non-financial assistance and benefits under non-procurement Federal programs and
activities. In addition, you wi\l be prohibited from receiving any Federal contracts or approved
subcon tracts under the Federal Acquisition Regulations ("FAR"). Lastly, during your debamlent
period, you are barred from having supervisory responsibility, primary management, substantive
control over, or critical influence on, a grant, contract, or cooperative agreement with any agency
of the Executive Branch of the Federal Government.


Reason for Debarment

Your debannent is based upon a referral fiom NSF's Office of inspector General ("OIG").
NSF's record demonstrates that you pleaded guilty to a charge of mail fraud in v~olationof 18
U.S.C. 5 1341. You were sentenced to five years probation and 200 hours of coinnlunity service,
and you were required to pay restitution in the amount of $78,385.05.
Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

(a) Conviction of or civil jud.gment for -

(1) Commission of fraud or a criminal offense in connection with obtaining, attempting to obtain,
or performing a public or private agreement or transaction; or


(3) Commission of embezzlement, theft, forgery, bribery, falsif~ationor destruction of records,
making false statements, tax evasion, receiving stolen property, making false claims, or
obstruction of justice; or

(4) Commission of any other offense indicating a lack of business integrity or business honesty
that seriously and directly affects your present responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. If, as in this case, the proposed debarment is
based upon a conviction or civil judgment, the standard of proof is met. Id. Therefore, your
conviction for engaging in mail fraud supports a cause for debarment under 2 CFR
180.800(a)(1),(3), and (4).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Having considered the seriousness of your
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR 180.860, we
are proposing debarment for a period of three years.


Procedures Governzng Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.855 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person, or in writ~ng,or though a representatwe, information and argument in opposition to
this debarment. 2 CFR 180.860. Please note, however, that because your debarment is based on
a conviction, you will not have an opportunity to challenge the facts underlying the conviction.
2 CFR 180.830(a). Comments submitted within the 30-day period will receive full consideration
and may lead to a revision of the recommended disposition. If NSF does not receive a response
to this notice within the 30-day period, this debarment will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia, 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.




                                                   Sincerely,



                                                   Kathie L. Olsen
                                                   Deputy Director



Enclosures:
Investigative Report
~ o n ~ r o c u r e m e Debarment
                        nt        Regulations
FAR Regulations
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON. VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Mr. Paul Meeder




       Re: Debar~nertf

Dear Mr. Meeder:

On July 1 1, 2008, the National Science Foundation ('WSF") sent you a Notice of Proposed
Debannent in which NSF proposed to debar you from directly or indirectly obtaining the benefits
of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
giving rise to NSF's decision to propose your debarment. Specifically, NSF indicated in the
Notice that the proposed debarment is based upon your conviction for mail kaud. In that Notice,
NSF provided you with thirty days to respond to the proposed debarment.                    ,

Over thlrty days have elapsed and NSF has not recelved a response. Accordingly, you are
              d July 1 1, 201 1 . Debamnent precludes you from receiving Federal financial and non-
d e b a ~ ~ euntil
financial assistance and benefits under non-procurement Federal prograins and activities unless an
agency head or authorized designee makes a detennination to grant an exception in accordance
with 2 CFR 180.135. Non-procurement transactions include grants, cooperative agreements,
scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies, insuralnce,
payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR) at 48 CFR Subpart 9.4 for the period of this
debannent. 2 CFR 180.925. During the debannent period, you may not have ~u~~ervisoi'y
responsibility, plimaly management, substantiiie contr-01over, or critical influence on, a grant,
contr-act, or cooperative agreen)ent with any agency of the Executive Branch o f the federal
Govel-nment.
If you have any questions regarding the foregoing, please contact Eric Gold, Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arhgton, Virginia, 22230.



                                                    Sincerely,



                                                    Katllie L. Olser~
                                                    Deputy Director
                                     NATIONAL SCIENCE FOUNDATION
                                             ,4201 Wilson Boulevard
                                           ARLINGTON, VIRGINIA 22230


                                                May 22,2008



          OFFICE OF
     INSPECTOR GENERAL




To :               Katliie L. Olsen
                   Deiiuty Director, NSF

From:


Subject:           In\lestigations Regarding the Camegie Institution of Washington


CONFIDENTIALITY      NOTICE: An OIG investigation and audit of the above institution are
ongoing. Action taken by NSF based on this meilloranduin should be coordinated with
the OIG Office of lilvestigatioi~sto ensure that it will not interfere with the ongoing
investigation or the current audit being coi~ductedby OIG's Office of Audit.



I.         Summary

lVSF OIG has conducted tliree investigations ilrvolviiig four fonner employees at the Carnegie
Institution of Washington (Carnegie) \vlio have embe~zledmore than $500,000 tlirougl~tluee
unrelated schemes.' As described below, each ci-ime was committed over a sijgiificant period of'
time in \vhich the intenial controls at Cainegie \\/ere unable to either prevent or timely identify
these serious thefts.

In the first matter, a forii~ei-researcher at Carnegie, \v11o sellled as a Co-Pi-incipal Investigator
(Co-PI) on an NSF award, einbezzled more than $200,000 fi-om federal award funds between
1994 and 1999. The Clo-PI'S scheme included jxiying his spouse over $83:000 in salary for false
time and effort I.CIIOI-1s    that he fol-gecl; convel-tilig 111-opeltypurchased with award funcls to his
1,ersonal use; and fr11i1-icatinginvoices and I-cceipls fol- j~urchasesto make tliem appear a\vai.d-
~.elaled\\,lien: In fact: they wei-e items pul-chased for his family and I~ome.Carnegie failed to
have adequate controls iri place lo in\ientory or monitor the Co-PI'S pu~.chases01- decect false
salary ~ ~ " ~ ~ i i to
                     e ~111s
                         i t sspouse: allo\\-~nzIiis ilIcg;~lncti\litics to go u~~tlisco\:esed   for a pel-iocl 01'5
       The Co-P I ulti~~iatel\:
).:ea~-s.                           pled guilt), in i'eclcl-al district court to one f'elon!; count o r-'eml~czzl~ng
h n d s fiom a program receiving federal funds in violation of 18 U.S.C. 5 666.' This resulted in                        '

a sentence of 12-months incarceration and restitution in the amount of $202,000.~

In the second matter, a former part-time accounting assistant for Carnegie pled guilty in state
court to G felony counts of grant theft and 12 felony counts of forgery, involving a scheme by
which she forged checks to fabricated vendors between 2001 and 2004, totaling $132,222 in
stolen fuilds.", Cai-negie failed to have adequate controls in place to nlonitor nlultiple payments
                                                                                                                                               l
to fabiicated vendors, allowing this scheme to go undetected for 3 years. This matter resulted in
a sentence of 361 days incarceration, 5 years of probation, and restitutioi~in the amount of
$238,240, which included the total amount stolen plus investigative and audit costs by ~ a n 1 e ~ i e . j
We recon~n~ended     that NSF debar this fonl~eraccounting assistailt for a period of 3 years, and
NSF did so with a debannent that is set to expire on June 29,2009."

Finally, in the most recent thefts, one forn~eraccouilts payable manager and one former
Accountant/Business Manager at Canlegie pled guilty in federal district court to inail fraud under
18 U.S.C. 5 1341, for engaging in a long-tern1 scl~emebetween 2002 and 2006 to use their
corporate credit cards for unauthorized personal expenditures exceeding $200,000 in stolen
funds.7 In this instance, Carnegie's internal controls failed to prevent or detect these thefts since
the two financial professionals involved worked within the same business office, and served as
the exclusive approving official for the other's illegal purchasing activities. This resulted in a
sentence o f incarceration, probation, and restitution for the business manager who held the more
senior position at Carnegie, and a sentence of 5 years probation and restitution for the former
accounts payable               We sent a recommendation to NSF to debar both individuals for 3
years, and that reconmendation is currently pending before I V S F . ~

As a result of these serious instances of fraud and theft by Carnegie employees, OIG's Office of
Investigations referred this institution to the Office of Audit. OIG's Office of Audit is currently
conducting an audit of Carnegie's internal controls, which failed to prevent or disclose these
thefts.

NSF is Carnegie's cognizant federal agency, and Carnegie currently has 5 1 active NSF awards
totaling over $26 rnillion.I0 In addition, Carnegie has 14 pending proposals, totaling over
$1 1 million." Moreot.er, according to Carnegie's A-133 audit report for the year ending June 30,
2007,12 Carnegie had $26,473,423 in federal expenditures for that year, 1111 funding from

' Tab 1
                              -           -



           Plea Agreement in w e d States 1,. Ckar1e.v C Jnnle.~.
3
   Tab 2, Judgrnent in Case No. I :03CR00306-001, United Slules v. Charles C. Jnii2e.s (the defendant had repaid more
tllali half of the. stolen funds prior to sentencing).
'
5
   Tab 3>Proposed Debarlnenl of Be.tsy Demay.
   Tab 4 , Order for liestilution and A b s t ~ a c of         t Judgmz~itill People 1.. Bef,n:Uertiov.
6
   Tab 5: Notice oPDebal-ment. dated Septembe.~8, 2006
' Tab 6 : Plea Agl-ee~nelitTo]-Paul Meeder and Tab. 7; Plea A~I-eenlentfol-John Sfraul,.
"-ah 8:Notice ofElcc(1.6nic Filing for Sentencing, f o ~Paul.Meede~-                     and Tab 9. Notice o~lIllec.t~-o~ilc I'ililig for
Seniencing, fol- Solill S r ~ a u b .
'
lir
   Tall 10, Recom111tncla~ionl'o~Dehal.ii~eli~                 Actions
    Tab 1 I : List oTC111.1i'nrNSF .4~\,a1.ds             to Gal-~iegie.
" -l'ab 12; 1-1st orCu~-~.ciit    NSI; Pl.oposals f~.oliiCa~.lii.yie
I2
    Tah 13; A u d l ~o ~ l ~ x l ~ e ~ i c l i rourrIe~sc d c ~ -A~var-ds
                                                                 al               in Accordance npitliI1.S ~ i ' i i c cof h4anagement alicl
                                                                          fo1-11iccl
J311cigi.t Cil-cula~A -I :?. h i - [lie Yea]-'131iiledS~ilie3 0 : 2 O W i .
    several other federal agencies including the National Aeronautics and Space Administration, the
    National Institutes of Health, and the Department of Energy. Until Carnegie improves and
    demonstrates the sufficiency of its internal controls over its accounting and financial processes,
    we recommend that NSF take additional action to protect its funds.

    11.       Analysis:

    Applicable federal I-egulations,Oh4B Circulars, and NSF award conditions mandate that
    awardees adhere lo specific rules for spending federal award funds, including
    (1) keeping adequate records of expenditures; (2) maintaining control over and accountability for
    all funds, propei-ly and assets; (3) following written procedures for detenllining the
    reasonableness, allocability and allowability of costs; and (4) keeping accounting records
    supported by source documentatioi~.'~As demonstrated above, after foul- cases of employee
    einbezzlemenl in lhe last several years, it is clear Can~egiedoes not maintain adequate controls
    over its funds, or adhere to the applicable federal regulatioils and policies that govern NSF
    awardees. Therefore, NSF should act to safeguard NSF funds currently awarded to this
    institution.

    NSF has the express authority to designate an institution as "high-risk" if it is a state, local, or
    Jildian tribal gover~~lnent,'4
                                 and in our view it has intrinsic authority to designate ally institution
    as "high risk" if the circumstances warrant. Moreover, NSF has the authority to increase
    monitoring and impose special award conditions" over awards to an institution.I6

    l 3 See 2 C.F.R. 5 2 15.21 (which codified O M B Circular -4-110, Uniform Administrative Requirements for Grants
    and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations); Grant
    General Conditions (GC-1) Section 1 Awardee Responsibilities and Federal Requirements.
    14
        45, C.F.R. part 602, Unifonn Administrative Requirements for Grants and Cooperative Ageements to State and
    Local Governments: 5 602.12, "Special Grant or subgraiit conditions for "high-risk" grantees."
    IS
        Special Award Conditions may iiiclude: (1) Payment o n a reimbursement basis; (2) Wiillholding authority to
    proceed to the next phase until receipt of evidence of acceptable perfornlailce within a given funding period; (3)
    Requiring additional, inore detailed financial reports; (4) Additional project monitoring; (5) Requiring the grantee
    or subgrantee to obtain tecllnical or nlanagenlent assistance; or (6) Establishing additional prior approvals.   45
,   C.F.R. 4 602.12; Essentials of Grant Law Practice, Dembling, Paul G. and Mason, Malcolm S . (American Law
    Institute, 1991), at 125'.
    16
        Pursuant to 2 C.F.R. 4 2 15.14 :

               "If an applicant or recipient: has a history of poor performance: is not fi ~lanciall)~
                                                                                                    stable, has a mallagenlent
               system that does not ineet the standards prescribed in this part, has not coilfonned to the terms and
               conditions of a previous award, or is not otliel-wise responsible, Federal awarding agencies may impose
               additional requii-enleiits as needed.. . ."

    See also Natioilal Science Foundalion Pi-oposal and A\\,al.d I'olicies and P ~ o c e d u r e sGuldc: dated April 2007; Par1 I I.
    A\\:ard and Adnlinist~allonGuide. Chaptel- 1 . NS1- A\\'ards, and Chaptel- 3(C)4, Financial llequil~enientsand
    Payments. "Special I)a):~iieli~s;"'      NSF B F 4 SOC; 2005-1. Use. of Reimb~lrsablePavnlents (dated 1/27/05) ( ' ' [ I J ~ I
    cases \vliei.e tliere are otliei- cil.ct~mstances01- I-isk factol-s tliat indicate tlie need Pol- added controls in d ~ s b u r s i casli,
                                                                                                                                           ~i~
    tlie Foundallon nia) choose to ~ s s u ethe a\\.a~.d\\;it11 1-zlmhul-iahle     ~~~~~~~~~~~es . . . 111addition. DGA ma), Inipose
    specla1 ~ ~ a y r i i e~~l-o\,lsions
                              ni                                                    lia\.e speclal pa!,melil 111 o \ islolls. irissilcs I-elaretl
                                       oil acl~vea\\.al.ds thai iio 1101 cu~-~-clitly
    to llic fiiia11ciaI \:ial~iIir!;orall a\\;al-dce ol.ganizal~oliCI~ICI-kc at any (]me dur-lng the a\\.al-cicycle."): SOC;2005-2.
                                            1~     Ihai IIG.4 is I cs~~oiislble
    BF!U'ost ,4\\;al-dh I o l i i f 0 1 ~ 1(~ioti~ig                            for haseline moliitol.liig actl\;ities as \\.ell as ad\.aiicc.d
    ~ n o n i t o r ~ l acti\'ii~esj.
                        ig
111..     Recommendations:

For the reasons set out above, we recornillend that NSF take the following actions:

      (1) Design'ate Canlegie as a high-risk organization;

      (2) Insert a special flag in the award system that specifically designates Can~egieas "high
          risk;"

      (3) Consider imposing special award conditions, including cost reimbursement and special
          payments, on the 5 1 active awards, and;

      (4) Impose the above actions for a period of three years, applying them to the current awards
          as well as future awards made to Carnegie, to provide adequate tlme for Canlegie to
          improve its internal controls over its financial systenl to ensure that its claimed costs are
          in compliance with applicable federal regulations, OMB Circulars, policies and grant
          conditions.

Please inform us of your decision with respect to these recommendations by June 20, 2008.
Please also inform us which additional special award conditions you plan to impose for existing
and future Carnegie awards. If you have any questions or concerns, please contact Fara
Damelin, Investigative Attorney, at 8873 or fdarnelin@nsf.gov.


cc:       Christine C. Boesz, Inspector General
          Thomas N. cooley,' Chief Financial Officer and Director, BFA
                         Director, Division of Grants and Agreements
                                  Director, Division of Institution and Award Support
                        Science Advisor
                       National Science Foundation
I
                       4201 Wilson Boulevard
                       Arlington, Virginia 22230




        June 26,2008



        Dr. Richard A. Meserve, President
        Carnegie Institution of Washington
        1530 P Street NW
        Washington, DC 20005-1910

        Dear Dr. Meserve:

        'The National Science Foundation (NSF), Office of Inspector General (OIG) has
        conducted three investigations involving embezzlement of funds by four former
        employees at the Carnegie Institution of Washington (Carnegie). As a result, the OIG
        Office of Investigations recommended that NSF consider imposing special award
        conditions, including cost reimbursement and special payments on all active awards to
        Carnegie. NSF has determined that special award conditions are appropriate, and
        accordingly, NSF's Division of Grants and Agreements (DGA) is imposing reirr~bursable
        payments for a period of three years, which will apply to current as well as future
        awards made to Carnegie. This action will provide adequate time for Carnegie to
        improve internal controls over its financial system to ensure that claimed costs are in
        compliance with applicable federal regulations, OMB Circulars, policies, and grant
        conditions.

        In accordance with Chapter lll.C.4 of the NSF Award and Administration Guide (AAG),
        Carnegie is required to request funds by using a "Request for Advance or
        Reimbursement Form" (SF-270). A copy of the form may be obtained at:
        http://www.whiteshouse.qov/omb/grants/sf270.pdf. Payment request forms should be
        accompanied with detailed expenditures by grant budget line items and a basic
        narrative explanation of costs requested. To establish an effective description of the
        costs related to the reimbursement requests, it is suggested to identrfy supporting
        language such as may be contained in the general accounting ledger to assure a proper
        explanation for analysis purposes Supporting documentation may be requested at the
        discretion of the Grants Officer. The amount requested for payment is reported on line
        1Ii of the form. The form should be submitted to                 , Grants Officer, either
    \
        by fax (703) 292-9142, email                    or mail to.

        National Science Foundation
        Division of Grants and Agreements
        4201 Wilson Blvd, Suite 495
        Arlington, VA 22230
Carnegie Institution of Washington
June 26,2008
Page 2


YGuwill not be permitted to request funds electronically through the FastLane Cash
Request Function or to request funds in advance.

If you have any questions, please contact me at (703) 292-4365.

Sincerely,



Robert F. Joyce, Branch Chief
National Science Foundation
Division of Grants and Agreements
